                         Review of EFG Technologies, Inc.'s
                               Year 2000 Readiness




               MANAGEMENT INFORMATION REPORT




                              Control Number ED-OIG/A05-90048
                                       November 1999




Our mission is to promote the efficient             U.S. Department of Education
and effective use of taxpayer dollars               Office of Inspector General
in support of American education                    Chicago, Illinois
                              NOTICE

Statements that management practices need improvement, as well as other
 conclusions and recommendations in this report, represent the opinions of
 the Office of Inspector General. Determination of corrective action to be
 taken will be made by appropriate Department of Education officials. In
accordance with the Freedom of Information Act (5 U.S.C. § 552), reports
  issued by the Office of Inspector General are available, if requested, to
members of the press and general public to the extent information contained
                    therein is not subject to exemptions.
MEMORANDUM

TO:            Greg Woods
               Chief Operating Officer
               Office of Student Financial Assistance

               [SIGNED]
FROM:          Steven A. McNamara
               Assistant Inspector General for Audit

SUBJECT: Review of EFG Technologies, Inc.’s Year 2000 Readiness, Control Number ED-
               OIG/A05-90048


Attached is our Management Information Report that informs you of the results of our review of EFG
Technologies, Inc.’s (EFG Tech) Year 2000 readiness. Management Information Reports are intended
to provide information for decision makers and are not audit or investigative reports. Our objectives
were to (1) gain an understanding of EFG Tech’s overall Year 2000 management plan and (2) evaluate
EFG Tech’s Year 2000 plan, milestones, and progress.

We rated EFG Tech's efforts as cautionary. Our evaluation indicated that it was not making
satisfactory progress in most key phases of its Year 2000 efforts. Also, EFG Tech was not Year 2000
compliant when our field work ended on July 14, 1999. The U.S. Department of Education required
schools and their servicers to be Year 2000 compliant by January 1, 1999. The Office of Student
Financial Assistance needs to inform EFG Tech of its need to: (1) create and test a
contingency plan that specifically addresses Year 2000 induced failures, (2) complete testing Year
2000 dates, (3) complete testing with its data exchange partners and key service providers, and (4)
upgrade its mainframe operating system software, system utilities, and local area network connections
to ensure they are Year 2000 compliant. These exceptions are potentially significant and you should
monitor EFG Tech’s progress relative to these areas.
In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office of
Inspector General are available, if requested, to members of the press and general public to the extent
information contained therein is not subject to exemptions. Copies of this report have been provided to
the offices shown on the report distribution list.

If you have any questions concerning this report, please call me or Richard J. Dowd, Regional
Inspector General for Audit, Chicago, Illinois, at 312-886-6503.


Attachment
                        UNITED STATES DEPARTMENT OF EDUCATION
                                            OFFICE OF INSPECTOR GENERAL




MEMORANDUM

T




SUBJECT: Review of EFG Technologies, Inc. * Year 2000 Readiness, Number ED



Attached is our Management Information Report that informs you of the results of our review of
EFG Technologies, Inc.'s (EFG Tech) Year 2000 readiness. Management Information Reports are
intended to provide information for decision makers and are not audit or investigative reports. Our
objectives were to (1) gain an understanding of EFG Tech's overall Year 2000 management plan


We rated EFG Tech's efforts as cautionary. Our evaluation indicated that it was not making
satisfactory progress in most key phases of its Year 2000 efforts. Also, EFG Tech was not Year
2000 compliant when our field work ended on July 14, 1999. The U.S. Department of Education
required schools and their servicers to be Year 2000 compliant by January 1, 1999. The Office of
Student Financial Assistance needs to inform EFG Tech of its need to: (1) create and test a
contingency plan that specifically addresses Year 2000 induced failures, (2) complete testing Year
2000 dates, (3) complete testing with its data exchange partners and key service providers, and (4)
upgrade its mainframe operating system software, system utilities, and local area network




                                  400 MARYLAND AVE., S.W. WASHINGTON D.C. 20202-1510

            Our mission Is to ensure equal access lo education and to promote cducational excellence
In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available, if requested, to members of the press and general public to the
extent information contained therein is not subject to exemptions. Copies of this report have been


If you have any questions concerning this report, please call me or Richard J. Dowd, Regional



Attachme
Table of Contents
Review of EFG Technologies, Inc.'s
Year 2000 Readiness
Control Number ED-OIG/A05-90048

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

On-Site Review Observations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

Evaluation of Testing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

Evaluation of Contingency Planning . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

Risk Analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

Conclusion and Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

Appendix

          Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

          Objectives, Scope, and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
ED-OIG Management Information Report CN ED-OIG/A05-90048
Review of EFG Technologies, Inc.'s Year 2000 Readiness



                                  Executive Summary
We rated EFG Technologies, Inc.'s (EFG Tech) Year 2000 efforts as cautionary, because it exhibited less
than satisfactory performance in most key phases of its Year 2000 readiness efforts. It also was not Year
2000 compliant when our field work ended on July 14, 1999. The U.S. Department of Education (ED)
required schools and their servicers to be Year 2000 compliant by January 1, 1999. EFG Tech did not
develop detailed written plans such as a renovation strategy, validation strategy, or implementation schedule
for its Year 2000 efforts. Also, EFG Tech did not have Year 2000 contingency plans in place at the time
of our site visit.

EFG Tech has completed its awareness, assessment, and renovation efforts for its loan servicing application
software. It is monitoring its mainframe operating system service provider's Year 2000 efforts. We learned
that EFG Tech's validation and implementation efforts are ongoing and will become more extensive once
it begins testing Year 2000 dates. Additionally, EFG Tech needs to address contingency planning and
testing of its data exchanges.

Because EFG Tech’s performance was less than satisfactory in most key phases of its Year 2000 readiness
efforts, the Office of Student Financial Assistance (OSFA) needs to inform EFG Tech of its need to

1.      create and test a contingency plan that specifically addresses Year 2000 induced failures,

2.      complete testing Year 2000 dates,

3.      complete testing with its data exchange partners and key service providers, and

4.      upgrade its mainframe operating system software, system utilities, and local area network
        connections (LAN) to ensure they are Year 2000 compliant.

ED has a responsibility to ensure that all of its computer systems and the interfaces between them and the
systems of its trading partners are ready to handle data that includes dates both before and after January
1, 2000. ED has issued various publications (including Dear Colleague Letters GEN-97-11 and GEN-98-
1) to reinforce the seriousness of Year 2000 compliance. ED recommended that institutions follow the five
Year 2000 phases set forth by the Office of Management and Budget and the General Accounting Office
to ensure they were Year 2000 compliant by January 1, 1999. The designated phases for a Year 2000
readiness plan are awareness, assessment, renovation, validation, and implementation (with ongoing
contingency planning throughout the entire project).

We conducted on-site field work at EFG Tech in Winston-Salem, North Carolina from July 6-14, 1999.
We gained an understanding of EFG Tech’s Year 2000 management plans and evaluated those plans for
sufficiency. We also examined EFG Tech’s supporting documentation and interviewed EFG Tech



                                                  Page 1
ED-OIG Management Information Report CN ED-OIG/A05-90048
Review of EFG Technologies, Inc.'s Year 2000 Readiness

personnel. This Management Information Report is intended to provide information for decision makers
and is not an audit or investigative report.




                                              Page 2
ED-OIG Management Information Report CN ED-OIG/A05-90048
Review of EFG Technologies, Inc.'s Year 2000 Readiness

                     On-Site Review Observations
Management               UICI is the parent company of Educational Finance Group, Inc.
Approach                 Educational Finance Group was formed through the merger of Student
                         Insurance (a division of UICI) and Education Funding Services, Inc.
                         Educational Finance Group offers customized, comprehensive loan
                         programs (including Federal Stafford and PLUS loans), student loan
                         consolidation, customer service, and assistance to financial aid offices.
                         Educational Finance Group’s divisions include

                         ‚       EFG Student Health Insurance, which offers student health
                                 insurance programs;
                         ‚       EFG Technologies, a servicer of Federal Perkins Loan
                                 Program and private loans (and the subject of our evaluation);
                                 and
                         ‚       EFG Direct, a provider of Federal PLUS loans.

                         EFG Tech provides administrative and data processing resources,
                         primarily student loan servicing, to educational institutions across the
                         United States.

Management               System IIIK is EFG Tech’s core business system. In 1985, Wachovia
Information System       Student Loan Services (Wachovia Services) of Winston-Salem, North
                         Carolina developed System IIIK for originating, tracking, and servicing
                         Federal Perkins Loans. Subsequently, EFG Tech purchased the
                         system. EFG Tech does not use any other independent systems for its
                         loan servicing functions.

                         EFG Tech uses in-house programming staff to administer System IIIK
                         and modify source code. System IIIK currently runs on an IBM
                         mainframe computer with an MVS operating system at UICI's data
                         center in North Richland Hills, Texas. Insurdata Incorporated
                         (Insurdata), another UICI subsidiary, operates the mainframe and the
                         North Richland Hills Data Center under a contractual agreement.

Year 2000 Project        EFG Tech established a Year 2000 Project Team (Project Team) to
Team                     assess the readiness of internal processes at its Winston-Salem, North
                         Carolina site and determine whether to repair, replace, or retire
                         processes. Executives from both EFG Tech and Educational Finance
                         Group are members of the Project Team. The Project Team does not
                         have an official charter and did not develop an overall written strategy
                         for achieving Year 2000 readiness.


                                          Page 3
ED-OIG Management Information Report CN ED-OIG/A05-90048
Review of EFG Technologies, Inc.'s Year 2000 Readiness

System Prioritization    The Project Team identified EFG Tech’s key business processes
                         related to servicing Federal loan programs. The processes include due
                         diligence processing, payment posting/processing, handling borrower
                         inquiries, claim filings, deferment/forbearance processing, borrower
                         billings, grace period mailings, reporting to customers and ED,
                         repayment mailings, and conversions. The Project Team then focused
                         its Year 2000 readiness efforts on System IIIK.

                         The Project Team used Endevor™, a utility software package, to
                         create a checklist identifying every program and every line of source
                         code used in System IIIK. To determine System IIIK’s Year 2000
                         exposure, the Project Team used a source code checklist to analyze
                         every program. Management information systems (MIS) programming
                         staff evaluated each program and line of source code to determine if
                         Year 2000 modifications were required.

                         EFG Tech is relying on Insurdata to ensure the mainframe operating
                         systems, system utilities such as a scheduler and optimizer, and
                         hardware are Year 2000 compliant. Insurdata has a Year 2000
                         Project Plan for EFG Tech describing how it will ensure the operating
                         system software is Year 2000 compliant.

Ongoing Work             As of the end of our field work, EFG Tech’s testing and implementation
                         phases were ongoing. Additionally, EFG Tech had not developed
                         Year 2000 specific contingency plans or tested key data exchanges.

Technical                From a systems' standpoint, EFG Tech’s Year 2000 compliance efforts
Approach                 can be segregated into the following four areas: (1) System IIIK, (2)
                         mainframe, (3) client/server (which includes local and wide area
                         networks’ hardware and software), and (4) building infrastructure.

System IIIK              System IIIK was designed to recognize Year 2000 dates. Dates
                         stored in EFG Tech’s system are already in a CYYMMDD format
                         (with C denoting the century). This minimized the amount of system
                         changes and allowed EFG Tech to retain its existing system. Therefore,
                         the primary area needing renovation was dates of birth.

                         The Project Team’s overall approach to the Year 2000 project was to
                         renovate the system in a piecemeal fashion. The Project Team selected
                         this approach due to the modular nature of System IIIK. The primary
                         objective of the renovation work was to upgrade the system and ensure
                         that the renovated system would still process 20th century dates after
                         the Year 2000 changes were made.

                                         Page 4
ED-OIG Management Information Report CN ED-OIG/A05-90048
Review of EFG Technologies, Inc.'s Year 2000 Readiness

                         Initially, the Project Team used Endevor™ to generate a referenced
                         listing of all System IIIK applications, platforms, and databases
                         (System IIIK components). The listing, maintained in a data set on the
                         EFG Tech mainframe computer, contained the names and descriptions
                         of all System IIIK components. The Project Team used the list as a
                         control point to ensure MIS staff evaluated all System IIIK
                         components for potential Year 2000 renovation purposes. The Project
                         Team segregated this list into various areas and assigned areas to MIS
                         programming staff. Staff evaluated each System IIIK component to
                         determine if it needed Year 2000 modifications.

                         As part of this process, the Project Team developed a Year 2000
                         Project Status Report form. One copy of the form was prepared for
                         each System IIIK component in need of a detailed evaluation. The
                         form included places for sign-off along the various stages of the
                         evaluation. These stages included (1) definition, (2) modification, (3)
                         unit testing, (4) system testing, and (5) implementation.

                         The Project Team identified all of EFG Tech’s external data trading
                         partners. The Project Team decided it did not need to test its data
                         exchange approach with clients, because it uses a 50 year sliding
                         window for all pertinent date fields. Therefore, EFG Tech has
                         windowed all data coming into the system electronically for Year 2000
                         purposes to get the dates in an acceptable format for the system. The
                         windowing technique is the only type of bridge or filter used for Year
                         2000 purposes on System IIIK.

Mainframe                The Project Team compiled a list of all tasks needed to ensure its
                         mainframe computer’s operating system and all system utilities
                         (maintained by Insurdata) are Year 2000 compliant. Insurdata’s
                         objectives for ensuring EFG Tech’s operating system software is
                         compliant include

                         1.      establishing the operating environments needed to test and
                                 operate Year 2000 user application software,
                         2.      upgrading all required third-party system software to be Year
                                 2000 ready,
                         3.      supporting through the end of 1999 both modified and
                                 unmodified operating system software utilities,
                         4.      acquiring and installing additional tools needed by EFG Tech to
                                 assist it in becoming Year 2000 ready,
                         5.      making all system software and utilities EFG Tech uses Year
                                 2000 ready, and

                                         Page 5
ED-OIG Management Information Report CN ED-OIG/A05-90048
Review of EFG Technologies, Inc.'s Year 2000 Readiness

                         6.      increasing the usage efficiency of installed resources.

                         Insurdata planned to place an IBM 390 operating system into
                         production by May 16, 1999. However, we were told that because
                         the Project Team had not completed its Year 2000 efforts, Insurdata
                         delayed placing the 390 operating system into production. The Project
                         Team and Insurdata were meeting once a week to discuss Insurdata’s
                         Year 2000 progress. EFG Tech's operating system software will not
                         be Year 2000 compliant until Insurdata completes the upgrade.

Client/Server            The Project Team developed an inventory of all network servers, in-
                         house related software, and related equipment. As of the end of our
                         field work, EFG Tech’s workstations were connected to its LAN by
                         self-configuring IBM 16/4 token ring cards. The Project Team planned
                         to replace the token ring cards with Ethernet cards, because the token
                         ring cards are vulnerable to Year 2000 dates. An EFG Tech official
                         was unsure when the replacement would be effective. All of EFG
                         Tech’s LAN connected workstations have the latest Year 2000
                         Microsoft upgrade installed. We were told the Project Team has not
                         obtained Year 2000 certifications from Microsoft or the manufacturers
                         of the workstations. However, the Project Team is confident that EFG
                         Tech’s suite applications are all compliant, because it installed the
                         Microsoft Year 2000 upgrade. The Project Team is also confident that
                         EFG Tech’s LAN connected workstations are compliant because it ran
                         a BIOS date sensitivity survey.

Building                 The Project Team identified the service providers (utilities,
Infrastructure           telecommunications, Insurdata) that could affect EFG Tech’s
                         operations. The Project Team assessed the effect Year 2000 induced
                         failures would have on its operations and obtained letters that describe
                         the service providers' Year 2000 readiness efforts. The service
                         providers assured the Project Team that they are making every effort to
                         ensure their systems will be Year 2000 compliant.




                                         Page 6
ED-OIG Management Information Report CN ED-OIG/A05-90048
Review of EFG Technologies, Inc.'s Year 2000 Readiness




                        Evaluation of Testing
Validation and           The Project Team had not completed the validation and implementation
Implementation           phases of the Year 2000 project for System IIIK, mainframe,
Phases Not Complete      client/server, and building infrastructure systems. Further, the Project
                         Team’s testing did not always conform to the structured approach
                         established by industry practices (e.g., user, system, integration,
                         customer acceptance, and regression testing). Finally, the Project
                         Team did not develop detailed validation and implementation plans and
                         schedules.

                         The Project Team created test scripts for testing the renovated System
                         IIIK modules. EFG Tech’s Product Development staff (Product
                         Development) designed the test scripts using a detailed testing
                         document developed for System IIIK in 1992 by Wachovia Services.
                         Product Development modified the test scripts for use in testing. They
                         also created additional scripts to address system changes and areas
                         requiring more in-depth coverage.

Testing Performed        To ensure the Project Team could test the renovated System IIIK,
                         Insurdata created a test environment on the mainframe computer that
                         consisted of a separate software partition. Insurdata then copied a
                         renovated version of System IIIK and a copy of the current database
                         to the test partition. The Project Team’s first testing objective was to
                         ensure that the renovated program logic was valid and that the
                         application still worked in the current environment. This testing did not
                         include any Year 2000 dates. The Project Team identified any
                         problems encountered. Once a System IIIK component was tested,
                         Product Development would sign-off on a Modification Test Form.
                         This sign-off is critical because the Project Team would not instruct
                         MIS to move any System IIIK component into production without the
                         sign-off of Product Development.

                         At the time of our site visit, Product Development was testing daily,
                         weekly, and month-end batch processes on the system. The process
                         testing simulated dates near the end of December 1999. When the
                         testing reached the point of rolling over to the 21st century, Product
                         Development planned to ensure it had covered all aspects of current
                         production. Only then would it perform the rollover testing. Product



                                         Page 7
ED-OIG Management Information Report CN ED-OIG/A05-90048
Review of EFG Technologies, Inc.'s Year 2000 Readiness

                         Development had not started testing Year 2000 dates, but had
                         developed and documented test scripts it planned to use.

Identified Problems      During testing in the current environment, Product Development
Corrected                addressed all problems with any System IIIK component. When
                         problems were found, Product Development would call the MIS
                         programming staff, explain the problem, and get it corrected. Once
                         MIS corrected the problem, Product Development would perform the
                         test again.

System IIIK Not Yet      The Project Team has assessed and renovated System IIIK. Also, the
Certified                Project Team has addressed Year 2000 issues for the client/server and
                         building infrastructure systems. However, as of the end of our field
                         work, the Project Team still needed to complete its validation and
                         implementation efforts before it could certify System IIIK is Year 2000
                         compliant. The Project Team also needed to ensure that Insurdata
                         completed its mainframe system upgrades. Further, EFG Tech did not
                         hire an outside entity to perform independent verification and validation
                         of the Project Team’s efforts and did not plan to hire a contractor.



              Evaluation of Contingency Planning
Contingency Planning     Year 2000 contingency planning addresses the steps needed to ensure
Methodology Not          the continuity of an agency’s core business processes in the event of a
Developed                Year 2000-induced system failure. EFG Tech did not initiate
                         contingency planning efforts to specifically address Year 2000 induced
                         failures.

EFG Tech Had No          At the time of our fieldwork, EFG Tech did not have a Year 2000
Year 2000 Specific       contingency plan. EFG Tech officials believed the business continuity
Contingency Plan         plan sufficiently covers all system failures. In its business continuity
                         plan, EFG Tech had plans to cover a total disaster scenario, but had
                         not updated those plans to specifically address Year 2000 issues. EFG
                         Tech’s plan called for a hot-site at Comdisco, Inc., an information
                         technology services contractor, and outlined processes to fix the
                         problems caused by a total disaster. In the interim, EFG Tech would
                         process all transactions manually. These plans would not be adequate
                         to mitigate the risks specific to Year 2000 induced failures.




                                         Page 8
ED-OIG Management Information Report CN ED-OIG/A05-90048
Review of EFG Technologies, Inc.'s Year 2000 Readiness


                                          Risk Analysis
Risk Analysis Defined             A risk analysis assesses and quantifies uncertainties. With regard to the
                                  Year 2000, these inherent uncertainties or risks are date-related events
                                  (or non-events) that would have a negative impact on or endanger a
                                  core business function or critical system of the organization. EFG
                                  Tech’s core business function having an impact on ED’s operations is
                                  its Federal Perkins Loan Program servicing.

Development of High               Booz•Allen & Hamilton, OSFA’s technical support contractor,
Impact Risk List                  developed a list of high impact Year 2000 risks based on areas
                                  identified by (1) individual and overall risk assessments of guaranty
                                  agencies (via telephone interviews), (2) OSFA management, and (3)
                                  industry best practices. Booz•Allen & Hamilton organized the resulting
                                  list into risk categories and subcategories. We added one subcategory
                                  to include service provider certifications. Though Booz•Allen &
                                  Hamilton developed the risk analysis for guaranty agency systems that
                                  process Federal Family Education Loans, we believe all items listed are
                                  high impact risks to both EFG Tech and OFSA.

                                  We scored each risk category and subcategory using the following
                                  scoring system that ranged from minus (-) to plus (+) (see legend in
                                  table below). Minus indicates EFG Tech has not taken steps to
                                  mitigate the associated risk. Plus indicates EFG Tech appears to be
                                  successfully mitigating Year 2000 risks. To receive a plus score, EFG
                                  Tech had to demonstrate actions taken to eliminate or reduce the
                                  impact or likelihood of a risk or threat before the time horizon to failure
                                  for that subcategory.

                               HIGH RISK CATEGORIES AND                                    RISK
                                    SUBCATEGORIES                                        MITIGATED

     MANAGEMENT
     Organization/Project Office. Upper management support. Unified message.                  0/+
     Audit/Quality Assurance of Year 2000 effort in place.                                    -/0
     Project plan and schedule in place, in use, and running as planned. Sufficient           -/0
     progress by phase. Little or no slippage. Able to meet January 1, 1999 deadline.
     TECHNICAL
     Inventory (hardware, software, interfaces, and embedded technology) completed.            +
     Appropriate designation of mission critical systems. Federal Perkins Loan Program        0/+
     systems designated as mission critical.




                                                     Page 9
ED-OIG Management Information Report CN ED-OIG/A05-90048
Review of EFG Technologies, Inc.'s Year 2000 Readiness

     Renovation approach. Standard methodology - used normal system development life             0
     cycle in approaching Year 2000 project. Renovation decisions based on analysis,
     such as impact studies.
     Testing approach. Evaluation of methods, plans, and results. All levels of testing          -/0
     addressed: unit, integration, systems, acceptance, and interfaces (true tests versus
     mimic tests). Used adequate testing procedures (regression, performance, stress, and
     forward and backward time). Tested critical Year 2000 dates.
     Data exchange issues resolved.                                                              -/0
     Formal process of certification of system compliance in place.                              0
     Formal process for obtaining Year 2000 certifications from key service providers.          0/+
     Contingency planning (Plans are a priority and are in place).                               -/0
     *Scoring Legend
             -         No risk mitigation activity has occurred.
             -/0       Efforts have been initialized in order to mitigate risks.
             0         Appears to be moderately mitigating risks.
             0/+       Appears to be satisfactorily mitigating risks.
             +         Appears to be successfully mitigating risks.


Areas of Risk                      The following risks were identified by category and evaluated as to the
                                   probability and acceptability of occurrence:

                                   •         Renovation Approach: EFG Tech did not develop a written
                                             renovation methodology or schedule. We reviewed evidence
                                             that it addressed renovation. However, without a written
                                             renovation plan or schedule, we could not determine whether
                                             EFG Tech adequately completed its renovation efforts.

                                   •         Testing Approach: EFG Tech did not develop any detailed
                                             testing strategies or schedules. Also, as of July 14, 1999, it had
                                             not tested any Year 2000 dates.

                                   •         Contingency Planning: EFG Tech did not have a Year 2000
                                             contingency plan. For further details on this issue, refer to the
                                             Evaluation of Contingency Planning section of this report.

                                   •         Data Exchanges: EFG Tech had not tested any of its data
                                             exchanges. EFG Tech planned to test data exchanges with
                                             some of its major service providers. However, as of July 14,
                                             1999, EFG Tech had not completed the tests nor did it provide
                                             us with a written plan.




                                                      Page 10
ED-OIG Management Information Report CN ED-OIG/A05-90048
Review of EFG Technologies, Inc.'s Year 2000 Readiness


              Conclusion and Recommendations
OSFA Needs to            Our evaluation of EFG Tech’s Year 2000 readiness efforts indicates it
Monitor EFG Tech’s       is not making satisfactory progress in its Year 2000 readiness efforts.
Progress                 We rated EFG Tech’s Year 2000 efforts as cautionary, because it
                         exhibits less than satisfactory performance in most of the key phases of
                         its Year 2000 readiness efforts. It also was not Year 2000 compliant
                         when our field work ended on July 14, 1999. ED required schools and
                         their servicers to be Year 2000 compliant by January 1, 1999. We
                         found that EFG Tech did not develop detailed written plans such as a
                         renovation strategy, validation strategy, or implementation schedule for
                         its Year 2000 efforts. Also, EFG Tech did not have Year 2000
                         contingency plans in place at the time of our site visit.

                         Because EFG Tech’s performance was less than satisfactory in most
                         key phases of its Year 2000 readiness efforts, OSFA needs to inform
                         EFG Tech of its need to:

                         1.      create and test a contingency plan that specifically addresses
                                 Year 2000 induced failures,

                         2.      complete testing Year 2000 dates,

                         3.      complete testing with its data exchange partners and key
                                 service providers, and

                         4.      upgrade its mainframe operating system software, system
                                 utilities, and LAN connections to ensure they are Year 2000
                                 compliant.




                                        Page 11
Background

EFG Tech provides administrative and data processing resources, primarily student loan servicing, to
educational institutions across the United States. It provides these services to about 635 institutions
participating in the Federal Perkins Loan and other loan programs and has over 2 million active
accounts totaling over $5 billion. EFG Tech has over 250 employees dedicated to student loan
servicing and related activities at its processing center in Winston-Salem, North Carolina.

ED is in the process of ensuring that all of its computer systems and the interfaces between them and
the systems of its trading partners are Year 2000 compliant. Year 2000 compliance (or readiness)
refers to the capability of a product to correctly process, provide, and/or receive data containing dates
from, into, and between the 20th and 21st centuries. A system’s ability to accurately process date data
is crucial to continuing a business’ normal operations beyond the turn of the century. Failure to address
this issue could result in erroneous system execution or system failure.

ED issued Dear Colleague Letters GEN-97-11 and GEN-98-1 to schools to reinforce the seriousness
of Year 2000 compliance, stress that third party vendors and servicers have a Year 2000 compliance
plan, and set forth the critical milestone dates by which schools should be Year 2000 compliant. The
Office of Management and Budget and General Accounting Office designated five key phases for a
Year 2000 readiness plan. The designated phases for a Year 2000 readiness plan are awareness,
assessment, renovation, validation, and implementation (with ongoing contingency planning). ED
required all participating schools to be Year 2000 compliant with regard to the processing of financial
aid data by January 1, 1999. ED informed the schools that it was their responsibility to ensure that any
vendor-supplied software or the services of a third party servicer were Year 2000 compliant by
January 1, 1999.

Objectives, Scope, and Methodology

We performed our evaluation of EFG Tech’s Year 2000 readiness to assist OSFA in obtaining an
understanding of the Year 2000 readiness of a large school servicer. Our objectives were to (1) gain
an understanding of EFG Tech’s Year 2000 management plans and (2) evaluate EFG Tech’s Year
2000 plans, milestones, and progress. Given our objectives, we only evaluated EFG Tech’s Year
2000 management plans and any documentation supporting its efforts. We performed our work
according to ED-OIG Policies and Procedures Manual Chapter 2310: Alternative Services.
Therefore, we did not (1) have a survey phase, (2) review EFG Tech’s system of management controls
except those directly related to Year 2000 readiness, (3) assess the reliability of computer-processed
data, and (4) provide a copy of our report to EFG Tech.

To evaluate the sufficiency of EFG Tech's Year 2000 plans, milestones, and progress, we used
guidelines that the General Accounting Office defined. Based on this definition, Year 2000 efforts are:
<       “Satisfactory” if the entity exhibits acceptable performance in all five designated phases of the
        Year 2000 readiness plan. Performance is satisfactory when project weaknesses are minor in
        nature and can be readily corrected within the existing project management framework. The

                                                 Page 1
       entity's remediation progress to date meets or nearly meets expectations laid out in its Year
       2000 project plan. Senior management and the Year 2000 team recognize and understand
       Year 2000 risk, are active in overseeing corrective efforts, and have ensured that the necessary
       resources are available to address this risk area.

<      “Cautionary” if the entity exhibits less than satisfactory performance in any of the key phases
       of the Year 2000 readiness plan. Performance is cautionary when project weaknesses are
       evident, even if deficiencies are correctable within the existing project management framework.
       The entity's remediation progress to date is behind schedule as laid out in its Year 2000 project
       plan. Senior management or the Year 2000 team is not fully aware of the status of the Year
       2000 corrective efforts, may not have committed sufficient financial or human resources to
       address this risk, or may not fully understand Year 2000 implications.

<      "Unsatisfactory" if the entity exhibits poor performance in any of the key phases of the Year
       2000 readiness plan. Project weaknesses are serious in nature and are not easily corrected
       within the existing project management framework. The entity's remediation progress to date is
       seriously behind schedule as laid out in its Year 2000 project plan. Management or the Year
       2000 team commitment is limited or their oversight activities are not evident. Senior
       management or the Year 2000 team is not fully aware of the status of the Year 2000 corrective
       efforts, may not have committed sufficient financial or human resources to address this risk, may
       not fully understand Year 2000 implications, or recognize the impact that the Year 2000 will
       have on the entity’s operations and interface with data trading partners.

We conducted on-site field work at EFG Tech in Winston-Salem, North Carolina from July 6-14,
1999. We gained an understanding of EFG Tech’s overall Year 2000 management plan and evaluated
those plans for sufficiency. We examined EFG Tech’s supporting documentation and interviewed EFG
Tech personnel. We did not attempt to obtain assurances that EFG Tech’s Year 2000 readiness plan
would work. We only determined if (1) EFG Tech management had taken sufficient action to mitigate
its Year 2000 risk exposure and (2) EFG Tech’s Year 2000 efforts were meeting or exceeding
established milestones. This Management Information Report is intended to provide information for
decision makers and is not an audit or investigative report.

We conducted our review according to government auditing standards applicable to the limited scope
review described.




                                                Page 2
                       REPORT DISTRIBUTION LIST
                    CONTROL NUMBER ED-OIG/A05-90046

Action Official                                                No. of Copies
Mr. Greg Woods                                                      Original
Chief Operating Officer
Office of Student Financial Assistance
U.S. Department of Education

Other ED Officials
Year 2000 Project Director
Office of the Chief Information Officer                                1

General Manager, Schools                                               1
Office of Student Financial Assistance

Director, Office of Public Affairs                                     1

Acting Chief Financial Officer                                  Electronic copy
Office of Student Financial Assistance

Secretary’s Regional Representative - Region IV, Atlanta               1

ED-OIG Officials
Inspector General                                               Electronic Copy

Deputy Inspector General                                        Electronic Copy

Counsel to the Inspector General                                Electronic Copy

Assistant Inspector General for Audit                           Electronic Copy

Assistant Inspector General for Investigations                  Electronic Copy

Deputy Assistant Inspector General for Audit                    Electronic Copy
Planning, Analysis, and Management Services                     Electronic Copy

Audit Services                                                         1

Area Audit Managers
      Atlanta, Dallas, Kansas City, New York, Philadelphia,   Electronic Copies (7)
      Sacramento, and Washington

Region V Audit Office                                                  2
